No. 20A-128
IN THE
SUPREME COURT OF THE UNITED STATES

JEFFERSON DUNN, COMMISSIONER OF THE ALABAMA DEPARTMENT OF
CORRECTIONS,
APPLICANT,
V.

WILLIE B. SMITH III,
RESPONDENT.

EXECUTION SCHEDULED FOR FEBRUARY
AT P.M. CST

,

OPPOSITION TO EMERGENCY APPLICATION
TO VACATE INJUNCTION OF EXECUTION
ANAND AGNESHWAR*
ARNOLD & PORTER
KAYE SCHOLER LLP
West th Street
New York, NY
( )
*Counsel of Record
PAIGE H. SHARPE
ANNA K. THOMPSON
ALLISON GARDNER
KIRBY MAYO
ARNOLD & PORTER
KAYE SCHOLER LLP
Massachusetts Avenue, NW
Washington, DC
(
)
February 11, 2021

SPENCER J. HAHN
JOHN PALOMBI
FEDERAL DEFENDERS FOR THE MIDDLE
DISTRICT OF ALABAMA
South Court Street
Montgomery, AL
( )
-

The Court of Appeals for the Eleventh Circuit overruled the district court and granted a
preliminary injunction to Willie B. Smith III that required the Alabama Department of
Corrections (the “ADOC”) to permit Mr. Smith’s religious advisor to be present in the execution
chamber at the time of execution. Rather than accommodate Mr. Smith’s request and move
forward with the execution under that condition, the ADOC has moved to vacate the preliminary
injunction. This Court should deny the motion.
No one disputed the evidence presented below that Mr. Smith is a practicing Christian.
No one disputed that “Mr. Smith’s faith teaches him that the point of transition between life and
death is important and that Pastor Wiley can provide spiritual guidance during this difficult
time.” Dkt. 4-1, Decl. of Spencer Hahn ¶ 14. No one disputed that “Pastor Wiley’s physical
presence in the execution chamber is essential to Mr. Smith’s spiritual search for redemption.”
Id. (emphasis added). And no one disputed Mr. Smith’s belief that Pastor Wiley’s presence in
the execution chamber, praying with him and holding his hand, would “eas[e] the transition
between the worlds of the living and the dead.” Id.
As for the ADOC’s burden, no one disputed that the ADOC considered no less restrictive
alternatives to the blanket prohibition on religious advisors in the execution chamber. See Dkt.
26-15 (Dep. of Cheryl Price (Aug. 20, 2020) 159:21–160:3). It did not consider background
checks, it did not consider training. Id. at 158:18–22; 159:9–20. It bizarrely suggested that
granting Mr. Smith’s request would somehow limit inmates’ choices of spiritual advisors but
presented no evidence on how this is so. See, e.g., Emergency Appl. to Vacate Inj. of Execution
(“Appl. To Vacate”) at 26.

Instead, it posited a speculative parade of possibilities, none

supported by concrete evidence and none consistent with the stringent standard this Court has
imposed.

In seeking to reverse the Eleventh Circuit, the ADOC rests largely on the abuse of
discretion standard but it does not properly explain what that means in the preliminary injunction
context. Questions of law are reviewed de novo. McCreary Cnty., Ky. v. Am. Civil Liberties
Union of Ky., 545 U.S. 844, 867 (2005). No deference should be given to the district court’s
application of the law to the facts, which were largely undisputed. Certified Restoration Dry
Cleaning Network, L.L.C. v. Tenke Corp., 511 F.3d 535, 543 (6th Cir. 2007) (finding that the
district court had abused its discretion by misapplying Michigan law to the facts of the case).
Nor does the abuse of discretion standard of review give the district court unfettered discretion.
See Gall v. United States, 552 U.S. 38, 68, (2007) (Alito, J., dissenting) (“A decision calling for
the exercise of judicial discretion ‘hardly means that it is unfettered by meaningful standards or
shielded from thorough appellate review.’” (quoting Albemarle Paper Co. v. Moody, 422 U.S.
405, 416, (1975) (emphasis added)). When a district court ignores one side’s evidence and
credits speculation over fact, it has abused its discretion. See Cooter & Gell v. Hartmarx Corp.,
496 U.S. 384, 405, (1990) (“A district court would necessarily abuse its discretion if it based its
ruling on an erroneous view of the law or on a clearly erroneous assessment of the evidence.”).
Ultimately, contrary to the suggestion of the dissent below, this is not a hard case
requiring nuanced judgment. This Court has opined on the breadth of Religious Land Use and
Institutionalized Persons Act (“RLUIPA”) protections and the stringency of the government’s
burden in two recent landmark cases that went largely ignored in the district court’s 57-page
decision. See Holt v. Hobbs, 574 U.S. 352 (2015); Burwell v. Hobby Lobby Stores, Inc., 573
U.S. 682, 728 (2014). To boot, this is the fourth time in two years that this Court has been asked
to rule on a religious advisor request similar to what is at issue here, each time signaling merit to
the petitioner’s claims. The Court vacated a stay in the first of those cases on timeliness

-2-

grounds, but a four-Justice dissent would have granted relief, finding that the petitioner was
likely to succeed on the merits. See Dunn v. Ray, 139 S. Ct. 661 (2019) (mem.). In two
subsequent cases, the Court found no timing issue and granted stays, each time determining that
each prisoner was substantially likely to succeed on the merits of his claims. See Murphy v.
Collier, 139 S. Ct. 1475 (2019) (mem.); Gutierrez v. Saenz, 141 S. Ct. 127 (2020) (mem.).
The Eleventh Circuit rightly determined that the same result should ensue here. The
district court, while crediting the sincerity of Mr. Smith’s beliefs, found that the ADOC’s policy
was not a substantial burden because Mr. Smith did not rely on authoritative scriptural sources,
did not opine that he would be deprived of salvation in the absence of the accommodation, and
was being allowed to practice his religion in other ways. Order at 18–23. The Eleventh Circuit
properly rejected this analysis as directly contrary to this Court’s directives in Holt and Hobby
Lobby. Indeed for 55 years, this Court consistently has held that religious belief is inherently
subjective and in the eye of the beholder; it is not only orthodoxy that is protected. United States
v. Seeger, 380 U.S. 163, 184 (1965).
The ADOC does not take issue with the Eleventh Circuit’s reversal of the district court’s
substantial burden analysis. It instead argues that the Eleventh Circuit should not have disturbed
the district court’s finding that the ADOC policy was the least restrictive means to accommodate
a compelling interest. But in reaching this finding, the district court ignored the stringency of the
least restrictive means test. It did not heed this Court’s holding in Hobby Lobby that the test is
“exceptionally demanding.” 573 U.S. at 728. The undisputed evidence in fact showed that the
ADOC had failed to consider any less restrictive alternatives to its blanket policy. It suggested
some speculative concerns but presented no evidence to support them.
This Court should deny the motion.

-3-

BACKGROUND AND PROCEDURAL HISTORY
The ADOC has long recognized the importance of having a religious advisor to minister
to a condemned prisoner in the execution chamber at the time of death. For more than twenty
years, the ADOC required its state-employed chaplain—a Protestant Christian—to attend every
execution. Ray v. Comm’r, Ala. Dep’t of Corr., 915 F.3d 689, 692 (11th Cir. 2019). The
chaplain would stand by the prisoner’s side, hold his hand, and pray and comfort him until he
died. Id. at 692–93.
In January 2019, Domineque Ray—a devout Muslim—requested that that same spiritual
comfort be afforded to him. Id. But because the ADOC did not employ any Muslim chaplains,
it denied Mr. Ray’s request for an imam to stand by his side during the execution. Id. Mr. Ray
challenged the ADOC’s decision as violative of the Establishment Clause and RLUIPA. See id.
at 693. Although the Eleventh Circuit granted Mr. Ray’s request for a stay of execution, id. at
703, this Court concluded in February 2019 that his challenge was untimely and vacated the stay
without addressing the merits of the case. See Dunn v. Ray, 139 S. Ct. 661 (2019) (mem.).
Writing for four members of the Court, Justice Kagan dissented: “Given the gravity of the issue
presented here, I think that the decision [vacating the stay is] profoundly wrong. . . . Ray has put
forward a powerful claim that his religious rights will be violated at the moment the State puts
him to death.” Id. at 661–62 (Kagan, J., dissenting).
The following month, a Buddhist prisoner in Texas sought similar relief from this Court.
See Murphy v. Collier, 139 S. Ct. 1475 (2019) (mem.). Texas—like Alabama—had for years
permitted its state-employed chaplains to minister to inmates at the time of death.

Id.

(Kavanaugh, J., concurring). But when Patrick Murphy asked to have a Buddhist priest attend
his execution, Texas denied the request. Id. This Court granted injunctive relief to Mr. Murphy,

-4-

prohibiting Texas from “carry[ing] out Murphy’s execution pending the timely filing and
disposition of the petition for writ of certiorari unless the State permits Murphy’s Buddhist
spiritual advisor or another Buddhist reverend of the State’s choosing to accompany Murphy in
the execution chamber during the execution.” Id. (mem.). In a concurring opinion, Justice
Kavanaugh suggested two possible ”equal-treatment remedies”: “(1) allow all inmates to have a
religious adviser of their religion in the execution room; or (2) allow inmates to have a religious
adviser, including any state-employed chaplain, only in the viewing room, not the execution
room.” Id. at 1475 (Kavanaugh, J., concurring).
Although Justice Kavanaugh was writing as to the Establishment Clause’s equaltreatment mandate, Texas revised its execution protocol to prohibit all religious advisors—
including its state-employed chaplains—from the execution chamber. See Order, Gutierrez v.
Saenz, Civil No. 1:19-CV-00185, at 7 (S.D. Tex. Nov. 24, 2020) [ECF No. 124]. This, too, was
challenged. In Gutierrez, another death row prisoner requested the presence of a Catholic priest
in the execution chamber. Id. at 9. The Fifth Circuit denied the request for a stay of execution,
818 F. App’x 309, 314 (5th Cir. 2020), but this Court summarily reversed, Gutierrez v. Saenz,
141 S. Ct. 127 (2020) (mem.).
This Court then directed the district court to “promptly determine, based on whatever
evidence the parties provide, whether serious security problems would result if a prisoner facing
execution is permitted to choose the spiritual adviser the prisoner wishes to have in his
immediate presence during the execution.” Id. Following that directive, the district court
concluded that Texas had not demonstrated “that serious security concerns would result from
allowing inmates the assistance of a chosen spiritual advisor in their final moments.” Order,
Gutierrez v. Saenz, Civil No. 1:19-CV-00185, at 29 (S.D. Tex. Nov. 24, 2020) [ECF No. 124].

-5-

This Court then granted certiorari and remanded to the district court for adjudication on the
merits. Gutierrez v. Saenz, No. 19-8695, 2021 WL 231538 (Jan. 25, 2021) (mem.).
While the Court has not definitively ruled on this issue, the direction of the Court’s orders
have been clear, especially when read with Hobby Lobby and Holt. A state is not to inquire into
the orthodoxy or reasonableness of a prisoner’s request, and must provide accommodations for
sincerely held religious beliefs unless it can demonstrate that its policy is the least restrictive
means of furthering a compelling interest.
Yet the ADOC has ignored these directions. Following Murphy, the ADOC revised its
execution protocol to exclude all religious advisors from the execution chamber. See Appl. to
Vacate at 3. The ADOC’s policy change was not the result of a careful consideration of
prisoners’ religious freedoms, but in response to Justice Kavanaugh’s concurrence in Murphy.
Panel Op. at 2. The ADOC, in fact, conceded that it did not consider any alternatives other than
an outright ban on religious advisors in the execution chamber. Smith, No. 2:20-CV-1026-RAH,
Dkt. 26-15 (Dep. of Cheryl Price 159:21–160:3 (Aug. 20, 2020)). It did not survey the practices
of other states or the federal BOP. Id. at 158:7–12. It did not hire an expert to consider the
feasibility of lesser restrictive alternatives. Id. at 158:18–22. Although the ADOC’s stateemployed chaplain testified that minimal time (e.g., three or four hours) was required to train a
religious advisor to attend an execution, the ADOC never considered training a non-employee
religious advisor. Id. at 159:9–20.
On December 1, 2020, Mr. Smith received an execution date of February 11, 2021. Panel
Op. at 2. Mr. Smith was raised in the Christian faith and, during his incarceration, he became a
born-again Christian and developed a close spiritual relationship with his pastor, Robert Paul
Wiley, Jr. See Smith, No. 2:20-CV-1026-RAH, Dkt. 4-1 (Decl. of Spencer J. Hahn) (“Hahn

-6-

Decl.”). But the ADOC’s execution protocol barred him from having Pastor Wiley by its side in
the execution chamber. Panel Op. at 2.
The ADOC scheduled Mr. Smith’s execution in the midst of the ongoing pandemic, when
it had not set an execution date for any prisoner since early 2020, before pandemic restrictions
began. See Equal Justice Initiative, Alabama Executions, https://eji.org/alabama-executions/
(most recent ADOC execution was March 5, 2020). Despite the ADOC’s pandemic response
preventing Mr. Smith from meeting with his attorneys in person to discuss his case since March
2020, on December 14, 2020, Mr. Smith filed a Complaint and Emergency Motion for
Preliminary Injunction, challenging the ADOC’s policy as violative of RLUIPA. See Dtk. 4-1,
Hahn Decl. ⁋ 4; Panel Op. at 2. During a hearing on the motion, the district court expressed
concern that the ADOC had presented no evidence to satisfy its burden. Tr. of Hr’g at 49, Smith
v. Dunn, No. 2:20-CV-1026-RAH (M.D. Ala. Jan. 20, 2021). None. It nevertheless permitted
the parties to submit additional evidence. See Order, Smith v. Dunn, No. 2:20-CV-1026-RAH
(M.D. Ala. Jan. 25, 2021).
On February 2, 2021, the district court denied the motion. See generally Mem. Opinion
& Order, Smith v. Dunn, No. 2:20-CV-1026-RAH (M.D. Ala. Feb. 2, 2021) (“Order”). The
court acknowledged that Mr. Smith had a sincere belief in the need for his pastor to attend his
execution, id. at 15–16, but concluded that he had failed to show that the ADOC’s decision
“substantially burdened” that religious belief, id. at 22–23. Specifically, the district court found
that Mr. Smith had cited no authoritative religious source showing that he would be deprived of
salvation if his pastor was not present at the moment of death. Id. at 18, 23. The court also
concluded that—notwithstanding the ADOC’s practice of allowing non-employee medical

-7-

personnel into the execution chamber1—the ADOC had a compelling security interest in
prohibiting non-employee religious advisors from the execution chamber. The court blindly
accepted the ADOC’s statement there was no “guarantee” that a heightened background
investigation on a religious advisor could be completed before the execution,2 even though there
was no evidence that the ADOC even requested a background check for Pastor Wiley. See
Smith, No. 2:20-CV-1026-RAH, Dkt. 12 (ADOC Resp.) (Dec. 22, 2020); Dkt. 27 (ADOC
Evidentiary Submission) (Jan. 22, 2021). And the court ignored the ADOC’s prior admission
that it had not considered alternatives other than an outright ban on religious advisors in the
execution chamber. Smith, No. 2:20-CV-1026-RAH, Dkt. 26-15 (Dep. of Cheryl Price 159:21–
160:3 (Aug. 20, 2020)).
The Eleventh Circuit reversed. See generally Panel Op., Smith v. Dunn, No. 21-10348
(11th Cir. Feb. 10, 2021). It reviewed the district court’s decision on an abuse of discretion
standard, and found two violations of RLUIPA principles on substantial burden that this Court
articulated in Holt. Id. at 9–10. First, a court “should not inquire into whether a prisoner prefers
one sort of religious exercise over another.” Id. at 9. Second, “availability of alternative means
of practicing religion is not a relevant consideration under RLUIPA.” Id. at 10. Because the
sincerity of Mr. Smith’s beliefs was not in question, see id. at 7, 10, and because the ADOC’s

Several members of the execution team—the IV team, the person responsible for inserting a central
line if needed, and the person declaring the prisoner dead—are all non-employees. Order at 26 n.17;
Smith, No. 2:20-CV-1026-RAH, Dkt. 27-9 (Dep. of Cheryl Price 110:4–15, 112:02–18 (Aug. 20,
2020)).
2
In support for its argument that a heightened background investigation may not be completed in
time, the ADOC cited testimony from its institutional chaplain that a background check could
take weeks or months. But the chaplain repeatedly admitted that he was unfamiliar with
background checks and that he really did not know about the timing of such a request. Smith, No.
2:20-CV-1026-RAH, Dkt. 27-10 (Dep. of Chris Summers 49:15–51:9 (Aug. 13, 2020)).
1

-8-

policy would prevent him from exercising those beliefs, Mr. Smith demonstrated a substantial
burden, see id. at 11.
The Eleventh Circuit then turned to the burden the ADOC was required to shoulder under
RLUIPA—that its decision denying Mr. Smith’s request for his pastor in the execution chamber
was the least restrictive means of furthering a compelling governmental interest. The Eleventh
Circuit found, “the ADOC has a compelling interest in maintaining safety, security, and
solemnity” during an execution. Id. at 12. But, describing the least restrictive means standard to
be “exceptionally demanding,” the Eleventh Circuit found the district court had abused its
discretion. Id. at 13 (quoting Davila v. Gladden, 777 F.3d 1198, 1207 (11th Cir. 2015) (quoting
Hobby Lobby, 573 U.S. at 728)). In particular, the federal BOP’s allowance of prisoners’
religious advisors in the execution chamber showed there was an alternative available, but the
district court “ignored this highly probative evidence.” Panel Op. at 14. The ADOC even
conceded that it could undertake the same measures as the BOP. Id. at 13-14. Because the
district court did not hold the ADOC to its burden, the Eleventh Circuit found that reversal was
required. Id. at 14.3
ARGUMENT
I.

The Eleventh Circuit Applied the Correct Standard of Review
The ADOC argues that on appeal from a grant or denial of a preliminary injunction, the

Eleventh Circuit should have reviewed for abuse of discretion. Appl. to Vacate at 17–18. This
articulation of the standard of review, however, ignores that conclusions of law are still reviewed
de novo. As this Court has explained, “on appeal from a preliminary injunction . . . [we] review
After finding that Mr. Smith had shown substantial likelihood of success on the merits, the
Eleventh Circuit briefly addressed the remaining preliminary injunction factors—irreparable
injury, balance of harms, and the public interest—and found they had been satisfied. Panel Op.
at 16-19.
3

-9-

the District Court’s legal rulings de novo, and its ultimate conclusion for abuse of discretion.”
McCreary Cnty., Ky. v. Am. Civil Liberties Union of Ky., 545 U.S. 844, 867 (2005) (citation
omitted); Gonzalez v. O Centro Espirita Beneficente Uniao do Vegetal, 546 U.S. 418, 428 (2006)
(“We review the District Court’s legal rules de novo and its ultimate decision to issue the
preliminary injunction for abuse of discretion.”) (citation omitted); see also LSSI Data Corp. v.
Comcast Phone, LLC, 696 F.3d 1114, 1119 (11th Cir. 2012) (on appeal, “review[ing] the
ultimate decision of whether to grant a preliminary injunction for abuse of discretion, but [ ]
review[ing] de novo determinations of law made by the district court en route”).
The Eleventh Circuit, accordingly, correctly reviewed the district court’s application of
the “substantial burden” and “least restrictive means” standards de novo in reaching its ultimate
conclusion that the district court abused its discretion. See LSSI Data Corp., 696 F.3d at 1119.
With respect to the “substantial burden” test, the Eleventh Circuit concluded that the district
court had misapplied the law.

It had ignored “two key [legal] principles underlying the

substantial burden analysis.” Panel Op. at 9.
With respect to the “least restrictive means” test, the Eleventh Circuit found that the
district court misapplied the standard by engaging in an overly-deferential analysis to the point of
ignoring evidence altogether. Panel Op. at 9. The district court, for example, ignored: (1) that
the federal BOP (which, over the last year, has conducted far more executions than any other
prison system) permits spiritual advisors in the execution chamber, id. at 13; (2) that the BOP
conducts background checks for spiritual advisors in two weeks or less and imposes no training
requirements on the advisors, id.; (3) that there were no disruptions or disturbances by the
spiritual advisors permitted by the BOP, id. at 14; (4) that the ADOC conceded it could comply
with the same BOP policy, id. at 14-15; and (5) that the ADOC did not provide any evidence that

- 10 -

adopting the BOP policy would undermine any compelling interest in security, id. at 15-16. This
failure, the Eleventh Circuit found, was “troubling” and “especially concerning.” Id. at 16.
But in any event, it is perplexing that the ADOC is arguing that the Eleventh Circuit did
not apply the abuse of discretion standard when the panel described the district court’s findings
as “an abuse” at least six times. See, e.g., Panel Op. at 6 (“[T]he District Court abused its
discretion by finding Smith failed to demonstrate his religious exercise was substantially
burdened . . . [and] abused its discretion in finding the ADOC’s policy is the least restrictive
means to further that compelling interest.”).4 When the district court failed to properly apply the
“substantial burden” and “least restrictive means” tests, upon a de novo review of those
conclusions, the Eleventh Circuit found a jarring abuse of discretion.5

See, e.g., Certified

Restoration Dry Cleaning Network, L.L.C. v. Tenke Corp., 511 F.3d 535, 543 (6th Cir. 2007)
(finding abuse of discretion where district court misapplied Michigan law to the facts of the
case). The decision below should stand.

See also Panel Op. at 9 (“The District Court abused its discretion by questioning whether
Smith’s belief that Pastor Wiley should be present in the execution chamber was only a
‘preference,’ rather than a tenet or practice of his religion, and by relying on alternative ways
Smith could practice his religion.”); id. at 12–13 (“Our review of the record leads us to the
conclusion that this [finding on least restrictive means] was an abuse of discretion.”); id. at 16
(“[T]he District Court credited the ADOC’s concession that it could comply with a policy similar
to that followed by the BOP, but did not hold the ADOC to its burden to show its compelling
interests were undermined by the less restrictive policy. This was an abuse of discretion.”); id. at
19 (“The District Court abused its discretion by improperly inquiring into Smith’s religious
beliefs and practices and finding the ADOC policy does not substantially burden Smith’s
religious exercise. The District Court also incorrectly applied the least restrictive means
inquiry.”).
5
The ADOC implies that the Eleventh Circuit improperly reached the merits. Not so. It simply
reviewed the lower court’s conclusions regarding the substantial likelihood of the merits—a
necessary step in the review of a denial of a preliminary injunction. See Gonzalez, 546 U.S. at
428.
4

- 11 -

II.

The Eleventh Circuit Correctly Enjoined the ADOC
Congress enacted RLUIPA with the intent of “provid[ing] very broad protection for

religious liberty.” Holt v. Hobbs, 574 U.S. 352, 356 (2015) (quoting Burwell v. Hobby Lobby
Stores, Inc., 573 U.S. 682, 693 (2014)); see also Colvin v. Caruso, 605 F.3d 282, 296 (6th Cir.
2010) (RLUIPA provides greater protection of religious liberties than the First Amendment)
(citing Lovelace v. Lee, 472 F.3d 174, 199–200 (4th Cir. 2006)). Under RLUIPA, a government
cannot impose “a substantial burden on the religious exercise of a person residing in or confined
to an institution,” unless the government shows that the burden furthers “a compelling
governmental interest” and does so by “the least restrictive means.” 42 U.S.C. § 2000cc–1(a).
A.

The Eleventh Circuit Correctly Interpreted the “Least Restrictive Means”
Test

Under RLUIPA, once a prisoner shows that his sincerely held belief has been
substantially burdened, the government must show that its decision satisfies a compelling interest
and that it is the least restrictive means for addressing that interest. Holt, 574 U.S. at 362; 42
U.S.C. § 2000cc–1(a).

Although the Eleventh Circuit erred in finding that the ADOC

demonstrated a compelling governmental interest, it nevertheless correctly concluded that the
ADOC failed to show that it had considered lesser restrictive means than an outright ban on all
religious advisors in the execution chamber.
This Court has described the “least restrictive means” standard as “exceptionally
demanding.” Hobby Lobby, 573 U.S. at 728. It requires the government to “show that it lacks
other means of achieving its desired goal without imposing a substantial burden on the exercise
of religion.” Id. Based on the evidentiary record—and the district court’s failure to follow this
Court’s teachings that “[i]f a less restrictive means is available for the Government to achieve its

- 12 -

goals, the Government must use it”—the Eleventh Circuit correctly concluded that the ADOC
failed to meet its burden. See Panel Op. at 13, 15–16 (quoting Holt, 573 U.S. at 728).
Critical to the Eleventh Circuit’s analysis was the fact that the district court “ignored []
highly probative evidence” of the practices in the federal BOP. Id. at 14.6 In at least five recent
executions, the BOP has allowed a religious advisor of the inmate’s choosing in the execution
chamber. In at least two of those executions, background checks were completed in less than
two weeks, see id. at 13, and the religious advisors received no training whatsoever, see, e.g., see
Dkt. 26-2, Decl. of Shawn Nolan ¶ 5. No security breaches resulted from their presence in the
execution chamber. Panel Op. at 14. The BOP practice is significant because most recent
executions have been conducted in the federal system.7 “While not necessarily controlling, the
policies followed at other well-run institutions would be relevant to a determination of the need

The ADOC complains that “the district court did consider the BOP,” and cites to a footnote in
which the court stated that neither party had presented “detailed information” regarding the
BOP’s practice or policy. Appl. to Vacate at 28 (emphasis in original). But that is patently not
the case. Mr. Smith submitted the sworn declaration of the Chief of the Capital Habeas Unit for
the Federal Community Defender Office for the Eastern District of Pennsylvania, who averred
that the BOP granted prisoner requests for their religious advisors’ presence in the execution
chamber shortly before the schedule execution, that the spiritual advisors received little or no
training, and that no sort of disruption or disturbance ensued. Dkt. 26-2, Decl. of Shawn Nolan
¶¶ 3, 5-6. The district court did not acknowledge this evidence at all.
7
In 2020, the BOP carried out 10 of the 17 executions in the United States. See
https://deathpenaltyinfo.org/stories/outcomes-of-death-warrants-in-2020. The Court may take
judicial notice of the statistical information on the Death Penalty Information Center, which are
not subject to reasonable dispute. See Fed. R. Evid. 201(b); Chhetry v. U.S. Dep’t of Justice, 490
F.3d 196, 199–200 (2d Cir. 2007) (the Board of Immigration Appeals could take judicial notice
of “changed country conditions based on news articles found on yahoo.com, or the websites of
CNN and BBC News”); Wilson v. Dunn, 2:16-CV-364-WKW, 2017 WL 5619427, at *6 (M.D.
Ala. Nov. 21, 2017) (taking judicial notice of information on www.deathpenaltyinfo.org);
McGehee v. Hutchinson, 4:17-CV-00179 KGB, 2017 WL 1399554, at *11 (E.D. Ark. Apr. 15,
2017), vacated on other grounds, 854 F.3d 488 (8th Cir. 2017), and judgment entered, 17-1805,
2017 WL 1423782 (8th Cir. Apr. 17, 2017) (“[T]he Court takes judicial notice of the publiclyavailable searchable execution database on the website for the Death Penalty Information Center
(‘DPIC’). See https://deathpenaltyinfo.org/views-executions.”).
6

- 13 -

for a particular type of restriction.” Holt, 574 U.S. at 368 (quoting Procunier v. Martinez, 416
U.S. 396 (1974)).8
As the Eleventh Circuit noted, the ADOC offered no explanation why the federal
executions could proceed with an outside religious advisor in the execution chamber, but
executions in Alabama could not. See Panel Op. at 14-15; see also Spratt, 482 F.3d at 42 (“in the
absence of any explanation by [the state] of significant differences between the [state prison] and
a federal prison that would render the federal policy unworkable,’” the state is unlikely to satisfy
strict scrutiny).9 This was “especially concerning,” the Eleventh Circuit found, “because the
ADOC conceded that it could undertake those very same measures” as the BOP. Panel Op. at 14.
The ADOC “provided no evidence that adopting this alternative—requiring spiritual advisors to
undergo a background investigation—would undermine its compelling interest in security.” Id.
at 15.
The ADOC complains instead that other states that conduct execution by lethal injection
do not permit outside religious advisors in the execution chamber. Appl. to Vacate. at 28-29.
This argument is both misplaced and irrelevant. Most of those protocols do not say one way or

See also Rich v. Sec’y, Florida Dep’t of Corr., 716 F.3d 525, 534 (11th Cir. 2013) (“While the
practices at other institutions are not controlling, they are relevant to an inquiry about whether a
particular restriction is the least restrictive means by which to further a shared interest.”);
Warsoldier, 418 F.3d at 1000 (“[T]he failure of a defendant to explain why another institution
with the same compelling interests was able to accommodate the same religious practices may
constitute a failure to establish that the defendant was using the least restrictive means.”).
9
See also Warsoldier, 418 F.3d at 999 (enjoining prison’s hair-length policy where
“[p]risons run by the federal government, Oregon, Colorado, and Nevada all meet the same
penological goals without such a policy”); Order at 26, Gutierrez v. Saenz, Civil No. 1;19-CV00184 (S.D. Tex. Nov. 24, 2020) (in light of “the experience of BOP requiring minimal training
for spiritual advisors in the execution chamber,” concluding that Texas “could implement some
means of training and vetting of an outside spiritual advisor that would effectively minimize
security concerns”).
8

- 14 -

the other whether religious advisors are permitted in the execution chamber.10 They do not
describe how these states would address a request by a condemned inmate for pastoral care in the
execution chamber. The ADOC does not suggest that any inmates in these states actually
requested and were denied a religious advisor. What is more, many of these states have not
executed anyone in years, so it is unclear whether the protocols are even in force.11
The ADOC also contends that it was not required to “refute every conceivable option to
satisfy the least restrictive means requirement.” Appl. to Vacate. at 26 (quoting Order at 26
(quoting Holt, 574 U.S. at 371 (Sotomayor, J., concurring))). But the ADOC’s Rule 30(b)(6)
representative unequivocally testified that, when revising the execution protocol to ban all
religious advisors from executions, the ADOC did not consider any alternatives. Dkt. 26-15
(Dep. of Cheryl Price (Aug. 20, 2020) 159:21–160:3). There was, moreover, zero evidence the
ADOC considered Mr. Smith’s proffered alternative: that the ADOC screen and conduct a
background check on Pastor Wiley before allowing him entry into the execution chamber. See
Smith, No. 2:20-CV-1026-RAH, Dkt. 12 (ADOC Resp.) (Dec. 22, 2020); Dkt. 27 (ADOC Evidentiary
Submission) (Jan. 22, 2021).
In light of the evidentiary record—including the ADOC’s inability to distinguish
practices of the BOP and its concessions that it did not consider lesser restrictive alternatives,
See https://deathpenaltyinfo.org/executions/lethal-injection/state-by-state-lethal-injectionprotocols. The ADOC implies that certain states, including Idaho, Nevada, and North Carolina,
have explicit bans on spiritual advisors in the execution chamber, which is inaccurate.
Appellee’s Br. at 43. These protocols simply do not list “spiritual advisor” on their list of
authorized individuals in the chamber; there is a difference. The ADOC then lists Georgia,
Indiana, Kentucky, Louisiana, Mississippi, Ohio, Oklahoma, and South Dakota, for which the
same is true. Id. Review of the publicly available protocols reveals that only Alabama, Texas,
and Tennessee have explicit bans.
11
For example, in 2020, only the BOP and five states—Alabama, Georgia, Missouri,
Tennessee, and Texas—conducted executions.
See https://deathpenaltyinfo.org/stories/
outcomes-of-death-warrants-in-2020.
10

- 15 -

including that put forward by Mr. Smith—the Eleventh Circuit correctly found that the ADOC
failed the “exceptionally demanding” least restrictive means test.
B.

The Eleventh Circuit Erred in Deferring to the State’s Generalized Security
Concerns

This Court can also affirm the Eleventh Circuit’s grant of the injunction based on the
ADOC’s failure to demonstrate a compelling interest. Petitioner submits that the Eleventh
Circuit was wrong in that analysis. This Court has explained that the government must show a
compelling interest “through application of the challenged law to the person—the particular
claimant whose sincere exercise of religion is being substantially burdened.” Holt, 574 U.S. at
363 (internal quotation marks and citations omitted; emphasis added). For example, in Holt,
while the prison had a “compelling interest in staunching the flow of contraband into and within
its facilities,” it did not have a compelling government interest under the more focused inquiry
into the particular policy at issue: prohibiting a prisoner from growing a half-inch beard. Id.12
What this means is that generalized concerns—even about prison safety and security—do
not satisfy that test. Although courts may defer to prison officials’ expertise on security, this
Court has warned that that deference should not be “unquestioning.” Holt, 135 S. Ct. at 864; id.
(respect for prison officials’ expertise “does not justify the abdication of the responsibility,
conferred by Congress, to apply RLUIPA’s rigorous standard”); Hobby Lobby, 573 U.S. at 726–
27 (courts must “scrutinize the asserted harm of granting specific exemptions to particular
religious claimants”) (internal quotation marks omitted). As Justice Sotomayor has explained,
“prison policies grounded in mere speculation are exactly the ones that motivated Congress to

12

See also, e.g., Williams, 895 F.3d at 190 (“[T]he government must justify its conduct by
demonstrating not just its general interest, but its particularized interest in burdening the
individual plaintiff in the precise way it has chosen.”).
- 16 -

enact RLUIPA.” Holt, 135 S. Ct. at 867 (Sotomayor, J., concurring) (quoting 106 Cong. Rec.
16699 (2000)) (internal quotation marks omitted). In a case about a prison, the ADOC cannot
satisfy its burden by saying this is a case about a prison.
But that is exactly the type of deference the Eleventh Circuit gave the ADOC. Correctly
applied, the ADOC should have been required to show a compelling governmental interest in
barring non-ADOC religious advisors like Pastor Wiley from the execution chamber. The
Eleventh Circuit, however, held that the ADOC need only show a “compelling interest [ ] in
maintaining safety, security, and solemnity during an execution. The prohibition on Pastor
Wiley’s presence, specifically, inside the execution chamber might promote the ADOC’s
compelling interest—but it is not the interest itself.” Panel Op. at 11. Under this analysis, the
government will always be able to show a compelling interest. For example, here, the ADOC
presented evidence of “disciplinary problems with ADOC-employed chaplains and religious
volunteers,” see Panel Op. at 12, but these handful of examples involved incidents of smuggling
contraband in the general prison setting, see Appl. to Vacate at 23. None of them involved
security breaches by clergy (whether in Alabama or elsewhere) in the execution chamber.13 The
ADOC’s invocation of these intrusions in the general prison setting is disingenuous at best, as it
is permitting Pastor Wiley to accompany Mr. Smith in the general prison setting right up to the
execution chamber.
Similarly, the ADOC presented evidence of its “extensive” vetting process and training
for execution team members, see Appl. to Vacate. at 16, but that selection and training process

13

See Order, Gutierrez v. Saenz, Civil No. 1:19-CV-00185, at 20 & n.14 (S.D. Tex. Nov. 24,
2020) [ECF No. 124] (although Texas identified one disturbance inside the execution chamber
caused by the condemned inmate, “[t]here was no evidence in the record of security problems in
the execution chamber caused by clergy” (emphasis added)).
- 17 -

related to the security team and medical personnel. The ADOC chaplain explained that he
received minimal training to participate in executions and does not participate in full “rehearsal”
executions. See Dkt. 26, Ex. J (Summers Dep. at 124:16–125:8) (Chaplain Summers attended 30
minutes of the two or three hour rehearsal before his first lethal injection execution); see also
Dkt. 26-14 (the ADOC previously allowed another chaplain in the execution room after a couple
hours of informal training).
Finally, the ADOC presented evidence of disturbances caused by family members of the
condemned and by the condemned inmate himself. Panel Op. at 22. None of the examples
involved the chaplain and none occurred inside the execution chamber. Although the ADOC’s
proffered evidence may have been relevant to support placing restrictions on family members in
the viewing room or searching visitors for contraband, it is not relevant to Mr. Smith, “the
particular claimant whose sincere exercise of religion is being burdened,” or to the “particular
context” at issue, the prohibition on Pastor Wiley’s presence in the execution chamber. Holt, 574
U.S. at 363.
Nor did the court acknowledge the contrary evidence, which suggested that the ADOC’s
security concern about an outside religious advisor in the execution room was, to put it candidly,
made up:


For more than 20 years, the ADOC had not just permitted but required the prison
chaplain to be with the inmate in the execution chamber without incident. Panel
Op. at 3; Order at 4–5.



The ADOC previously allowed another prison chaplain to be present in the
execution chamber with just three or four hours of informal training and without
incident. Dkt. 26-14.



The execution team includes several non-ADOC employees (e.g., the IV team)
who access the execution chamber immediately before and after executions.

- 18 -

There have been no incidents involving these team members. Panel Op. at 3;
Order at 36 n.17; Dkt. 27-9.14
Without any evidence to support concerns specific to a religious advisor’s presence in the
execution chamber, the ADOC has not carried its burden, and the Eleventh Circuit erred in
finding a compelling governmental interest.
C.

The Eleventh Circuit Correctly Found that the ADOC’s Decision
“Substantially Burdened” Mr. Smith’s Religious Beliefs

The ADOC does not challenge the Eleventh Circuit’s substantial burden analysis,
presumably because the district court’s analysis was clearly legally erroneous and an abuse of
discretion.
Explaining this analysis helps put this case into its proper context. RLUIPA applies to
“any exercise of religion, whether or not compelled by, or central to, a system of religious
belief.” 42 U.S.C. § 2000cc-5(7)(A). Congress instructed that this concept “be construed in
favor of a broad protection of religious exercise, to the maximum extent permitted by the terms
of this chapter and the Constitution.” Id. § 2000cc-3(g).
Applying these mandates, this Court has made clear that the protections of RLUIPA apply
to the subjective religious beliefs of individuals. Holt, 574 U.S. at 362. After all, “[m]en may
believe what they cannot prove. They may not be put to the proof of their religious doctrines or
beliefs. Religious experiences which are as real to life to some may be incomprehensible to
others.” See Seeger, 380 U.S. at 184 (internal quotation marks and citations omitted). Courts

14

In Gutierrez, based on “extensive evidence” and briefing, the district court determined that “no
serious security problems would result” from having an outside religious advisor attend the
execution. See Order, Gutierrez v. Saenz, Civil No. 1;19-CV-00184 (S.D. Tex. Nov. 24, 2020).
The prison’s position, the court concluded, boiled down to “speculat[ion] about the hypothetical
malfeasance a spiritual advisor could inflict.” Id. at 24
- 19 -

therefore “have no business” wading into questions of orthodoxy or whether a particular
religious belief is reasonable. Hobby Lobby, 573 U.S. at 724.
For example, in Holt, this Court unanimously found that a state prison policy prohibiting
prisoners from growing beards imposed a substantial burden on a Muslim prisoner, who wished
to grow a 1/2-inch beard in accordance with his religious beliefs. 574 U.S. at 355–56. Because
the prisoner believed the growing of a beard was a dictate of his faith, but the prison would
impose serious disciplinary action if he did so, the policy was a substantial burden. Id. at 361. It
mattered not whether the burden was “slight,” or the prisoner’s beliefs were idiosyncratic. Id. at
361–62. RLUIPA “applies to an exercise of religion regardless of whether it is ‘compelled.’” Id.
at 362 (quoting 42 U.S.C. § 2000cc-5(7)(A)).
Similarly, in Hobby Lobby, the Court rejected the government’s invitation to address
whether a particular religious belief was “reasonable.” 573 U.S. at 724. “For good reason,” the
Court noted, “we have repeatedly refused to take such a step.” Id. “[I]t is not for [the Court] to
say that [] religious beliefs are mistaken or insubstantial. Instead [the Court’s] ‘narrow function
. . . in this context is to determine’ whether the line drawn reflects an ‘honest conviction.’” Id. at
725 (quoting Thomas v. Review Bd. of Ind. Emp. Sec. Div., 450 U.S. 707, 716 (1981)).
The Eleventh Circuit correctly concluded that the ADOC’s decision to deny pastoral care
in the execution chamber “substantially burdened” Mr. Smith’s sincerely held religious belief.
No one questioned that Mr. Smith genuinely believed he needed his pastor to attend his
execution. See Panel Op. at 7, 10, 11. He explained that Pastor Wiley’s presence in the
execution chamber was “important” and “essential” to his “spiritual search for redemption.” Id.
at 10–11 (internal quotation marks omitted). And because the ADOC’s decision prevented Pastor
Wiley from being physically present in the execution chamber, Mr. Smith could not carry out his
- 20 -

religious practice. Id. at 11. That is all that is required to establish a substantial burden on
religious exercise. Id.15
III.

The Eleventh Circuit Correctly Found that the Other Preliminary Injunction
Factors Weigh in Favor of a Preliminary Injunction
As the Eleventh Circuit found, each of the other factors—irreparable injury, the balance

of the harms, and the public interest—all favored granting Mr. Smith’s motion for preliminary
injunction. See Panel Op. at 16-19.
First, Mr. Smith faces irreparable injury. RLUIPA was designed to enforce religious
freedom rights, see 42 U.S.C. § 2000cc–3(g), which is why “the infringement of one’s rights
under RLUIPA constitute[s] irreparable injury.” Reaching Hearts Int’l, Inc. v. Prince George’s
Cnty., 584 F. Supp. 2d 766, 795 (D. Md. 2008); see also Opulent Life Church v. City of Holly
Springs, Miss., 697 F.3d 279, 295 (5th Cir. 2012) (finding irreparable harm when RLUIPA is
violated); see also Warsoldier v. Woodford, 418 F.3d 989, 1001-02 (9th Cir. 2005) (observing
that a prisoner’s “colorable” RLUIPA claim “sufficiently established that he will suffer an
irreparable injury absent an injunction”). Without injunctive relief, it is likely that the ADOC
will execute Mr. Smith “without Pastor Wiley in the room with him as he passes. There is no
do-over in this scenario.” Panel Op. at 18; id. at 16-17). The potential harm is unquestionably
irreparable.

See also, e.g., Yellowbear v. Lampert, 741 F.3d 48, 55 (10th Cir. 2014) (Gorsuch, J.) (religious
exercise is substantially burdened if a prison “prevents the plaintiff from participating in an
activity motivated by his sincerely held religious belief”); Fox v. Washington, 949 F.3d 270,
281–82 (6th Cir. 2020) (prison’s refusal to allow a group of white separatists to pray together on
the Sabbath and holidays rather than as part of other religious services was a substantial burden
on their professed Christian Identity religious beliefs); Jones v. Carter, 915 F.3d 1147, 1151–52
(7th Cir. 2019) (providing a Jewish inmate with only vegetarian meals that did not include meat
substantially burdened his religious beliefs even though the prisoner had other options to obtain
appropriate meat); Ware v. La. Dep’t of Corr., 866 F.3d 263, 269 (5th Cir. 2017) (policy banning
dreadlocks was found to be a substantial burden).
15

- 21 -

The ADOC instead complains that Mr. Smith’s lawsuit is untimely. This argument is
belied by the record and is unavailing in any event under Supreme Court precedent. In Murphy,
the death row prisoner “knew or had reason to know everything necessary to assert” his RLUIPA
claim as early as 2013, but he did not file his state court action until 2019, just one month before
his scheduled execution date. Murphy, 139 S. Ct. at 1479 (Alito, J., dissenting). When his state
action case was dismissed, Murphy sued in federal court just two days before the scheduled
execution date. Id. The Supreme Court granted a stay of execution, finding Murphy’s complaint
timely because “Murphy made his request to the State of Texas a full month before his scheduled
execution.”

Id. at 1477 (Kavanaugh, J., concurring); see also Pet. for Writ of Certiorari,

Gutierrez v. Saenz, No. 20-70009, at 8–9 (June 15, 2020); Gutierrez v. Saenz, 141 S. Ct. 127
(2020) (mem.) (staying execution without questioning the timeliness of the complaint). Here,
Mr. Smith made his request nearly 60 days before his scheduled execution. The ADOC thus had
“plenty of time” to respond to the Mr. Smith’s concerns.

Murphy, 139 S. Ct. at 1477

(Kavanaugh, J., concurring).
Nor was the ADOC prejudiced with respect to the timing of Mr. Smith’s motion for
relief. In response to that motion, the ADOC presented no evidence. During oral argument, the
district court gave the ADOC another chance to submit evidence. This should not have been
difficult for the ADOC to do. For the past two years, the ADOC has been litigating a case
brought by a Muslim prisoner challenging the ADOC’s denial of his imam in the execution
chamber and the district court expressly permitted the ADOC to present evidence adduced in that
case. See Burton v. Dunn, No. 2:19-CV-242 (M.D. Ala.) Discovery in that case had closed a
month earlier, so the ADOC was able to use the full panoply of documents produced and
testimony elicited in that case. Accordingly, even if Mr. Smith had delayed in bringing this suit

- 22 -

(and he did not), the ADOC was not prejudiced and the district court was able to rule with a
complete evidentiary record. As the Eleventh Circuit found, given Mr. Smith’s showing that he
is likely to prevail on his claims, “any delay is not so weighty.” Panel Op. at 17-18.
Second, the harm suffered by Mr. Smith in the absence of an injunction would far exceed
the harm suffered by the ADOC if the injunction is issued. Any harm posed to the ADOC
amounts to the minor inconvenience of the delayed execution of a prisoner who has been on
death row for more than two decades. In actions alleging violations of First Amendment rights,
where a plaintiff has shown likelihood of success on the merits, the “balance of harms normally
favors granting preliminary injunctive relief[.]” Am. Civil Liberties Union of Ill. v. Alvarez, 679
F.3d 583, 589–90 (7th Cir. 2012). Further, where a plaintiff shows a likelihood of success on a
RLUIPA claim—as is the case here—courts routinely conclude that the balance of hardships
favors the plaintiff. See, e.g., Guatay Christian Fellowship v. County of San Diego, 2008 WL
4949895, at *4 (S.D. Cal. Nov. 18, 2008) (“Congress has determined that the balance of equities
and public interest should weigh in favor of free exercise of religion and that this balance should
only be disrupted when the government is able to prove, by specific evidence, that its interests
are compelling and its burdening of religious freedom is as limited as possible.”).
Third, the public “has a serious interest in the proper application and enforcement of . . .
RLUIPA.” Ray, 915 F.3d at 701. Cf. Brooklyn, 141 S. Ct. at 68 (“The restrictions at issue here,
by effectively barring many from attending religious services, strike at the very heart of the First
Amendment’s guarantee of religious liberty. Before allowing this to occur, we have a duty to
conduct a serious examination of the need for such a drastic measure.”). As the Eleventh Circuit
explained, because RLUIPA “must be construed broadly to protect religious exercise,” the

- 23 -

avoidance of a RLUIPA violation is in the public interest. Panel Op. at 18. Mr. Smith has thus
met this final consideration.
CONCLUSION
For all of the reasons set forth above, the Court should affirm the Eleventh Circuit and
grant the injunction requiring the ADOC to permit Mr. Smith to have Pastor Wiley in the execution
chamber at the time of execution.

Respectfully submitted.
/S/ ANAND AGNESHWAR__________________
ANAND AGNESHWAR*
ARNOLD & PORTER
KAYE SCHOLER LLP
West th Street
New York, NY
( )
anand.agneshwar@arnoldporter.com
*Counsel of Record
PAIGE H. SHARPE
ANNA K. THOMPSON
ALLISON GARDNER
KIRBY MAYO
ARNOLD & PORTER
KAYE SCHOLER LLP
Massachusetts Avenue, NW
Washington, DC
(
)
paige.sharpe@arnoldporter.com
anna.thompson@arnoldporter.com
allison.gardner@arnoldporter.com
kirby.mayo@arnoldporter.com
FEBRUARY 11, 2021

- 24 -

SPENCER J. HAHN
JOHN PALOMBI
FEDERAL DEFENDERS FOR
THE MIDDLE DISTRICT OF
ALABAMA
South Court Street
Montgomery, AL
( )
Spencer_Hahn@fd.org
John_Palombi@fd.org

